October 15, 2009

DEAN J. GRANHOLM
VICE PRESIDENT, DELIVERY AND POST OFFICE OPERATIONS

JOHN EDGAR
VICE PRESIDENT, INFORMATION TECHNOLOGY SOLUTIONS

JERRY D. LANE
VICE PRESIDENT, CAPITAL METRO AREA OPERATIONS

MEGAN BRENNAN
VICE PRESIDENT, EASTERN AREA OPERATIONS

JOANN FEINDT
VICE PRESIDENT, GREAT LAKES AREA OPERATIONS

TIMOTHY C. HANEY
VICE PRESIDENT, NORTHEAST AREA OPERATIONS

TERRY J. WILSON
VICE PRESIDENT, SOUTHEAST AREA OPERATIONS

SYLVESTER BLACK
VICE PRESIDENT, WESTERN AREA OPERATIONS

SUBJECT: Audit Report – Use of the Carrier Optimal Routing System
         (Report Number DR-AR-10-001)

This report presents the results of a request1 from the Acting Vice President, Delivery
and Post Office Operations, to review the U.S. Postal Service’s use of the Carrier
Optimal Routing (COR) System (Project Number 09XG003DR000). Our objective was
to review the Postal Service’s use of the COR system for consolidating routes for
efficient lines of travel and reducing delivery costs. This audit addressed financial and
operational risks. See Appendix A for additional information about this audit.




1
 This audit was performed under a value proposition agreement between the Acting Vice President, Delivery and
Operations, and the Delivery Directorate of the U.S. Postal Service Office of the Inspector General.
Conclusion

The Postal Service performed route adjustments using the COR system on 15,634
routes. However, opportunities still exist to use the COR system to consolidate carrier
routes to create more efficient lines of travel and reduce delivery costs.

Use of the COR System

While the Postal Service completed 15,634 routes using the COR system, it did not
complete an additional 39,237 routes in the 32 districts reviewed.2 We also found that
in the majority of cases it did not track reductions in vehicle mileage changes due to
COR system route adjustments. Only three of the 32 districts reviewed were able to
provide information concerning route mileage changes.

We identified three major factors that contributed to district officials’ inability to fully
utilize the COR system. Specifically:

    a. The COR system was not initially user friendly and the data preparation process
       is labor intensive and time consuming.

    b. Dedicated district personnel are sometimes not selected and trained as COR
       system subject matter experts.

    c. Postal Service Headquarters did not mandate tracking of mileage changes in the
       issued policy memorandums.

See Appendix B for our detailed analysis of this topic.

As a result, the Postal Service may not realize nationwide cost reductions in delivery
from consolidation of carrier routes and changes in vehicle mileage. We estimated the
Postal Service incurred unrecoverable supported questioned costs3 of almost $102
million in fiscal year (FY) 2008 by not using the COR system. By using the COR
system, we estimate the Postal Service could save more than $221 million in funds put
to better use4 over the next 2 years.5 See Appendix C for additional information about
this issue.

We recommend the Vice President, Information Technology Solutions:

1. Resolve performance issues with the Web Carrier Optimal Routing system and
   implement the web-based program nationwide.

2
  COR system data review as of April 30, 2009.
3
  Costs that are unnecessary, unreasonable, or an alleged violation of law or regulation.
4
  Funds that could be used more efficiently by implementing recommended actions.
5
  The monetary impact of $323 million is conservative in that it does not include all districts within the eight areas. In
addition, we did not include elimination of vehicles and reductions in vehicle mileage in the calculation.
We recommend the Vice Presidents, Capital Metro, Eastern, Great Lakes, Northeast,
Southeast, and Western Area Operations:

2. Ensure district managers:

   a. Select and train at least four individuals as Carrier Optimal Routing system
      subject matter experts as mandated by the Postal Service.

   b. Complete the Data Preparation Process to include use of current Postal Service
      Form 3999, Inspection of Letter Carrier Route.

   c. Complete all route adjustments using the Carrier Optimal Routing system.

We recommend the Acting Vice President, Delivery and Post Office Operations, ensure
area officials:

3. Mandate districts to track and monitor vehicle mileage changes in the Carrier
   Optimal Routing system.

Management’s Comments

The Vice President, Information Technology Solutions (IT), agreed with the finding and
recommendation 1. Management stated in July 2009, they presented a workshop
addressing performance issues to the Web COR (WebCOR) Performance Team, which
consisted of vendors and IT representatives. In addition, management stated that
customers have requested several software change requests to enhance the WebCOR
application. Finally, management stated all work will be completed by December 31,
2009, and they will place the WebCOR application into production and officially retire
the COR.

Four of the six areas agreed with the finding and recommendation 2a. For these areas,
management stated they have trained subject matter experts for their districts.
However, some districts have lost subject matter experts due to retirements and
movement within the districts. To satisfy this requirement, management stated they will
train additional staff to ensure district offices have the recommended number of trained
subject matter experts for the data preparation and route adjustment processes. In
addition, the Acting Vice President, Delivery and Post Office Operations, indicated that
headquarters is assisting by developing and completing extensive training in all areas,
and they conducted national and area webinar training and provided hands-on
assistance to districts and areas to further the use of the COR system.

Eastern and Great Lakes Areas disagreed with the finding and recommendation 2a.
Area management stated Postal Service Headquarters did not mandate the selection
and training of four subject matter experts in each district, but the mandate was for
individuals to be selected and trained at the area level. Eastern Area management
stated they have fulfilled the requirement to train two data preparation champions and
two route adjustment champions at the area level. In addition, they will continue to track
and ensure that sufficient personnel in each district are trained and supported by the
area subject matter experts. Great Lakes Area management stated they have met this
requirement from the initial roll out of the COR system. In addition, they have trained 73
individuals on COR database preparation and 63 individuals on COR route adjustments
since the inception of the program in 2005. Finally, management stated they have two
additional COR route adjustment classes scheduled in September 2009.

All six areas we focused on in the report agreed with the finding and recommendation
2b. These areas have communicated to their districts through policy letters or bi-weekly
teleconferences the importance of completing the COR data preparation process to
include the use of the most current and accurate Postal Service (PS) Form 3999. In
response to recommendation 2c, all areas we focused on agreed with the finding and
recommendation stating they have already taken initiatives to ensure route adjustments
are completed using the COR system. However, the Eastern and Great Lakes Areas
disagreed in part with the recommendation stating the COR system can only be used on
zones in delivery units using the Delivery Operating Information System (DOIS).

The Capital Metro, Southeast, and Western Areas agreed with the potential monetary
impact. However, the Eastern, Great Lakes and Northeast areas disagreed with the
potential monetary impact.

The Acting Vice President, Delivery and Post Office Operations, agreed with the finding
and recommendation 3. Management stated tracking and monitoring of vehicle mileage
will occur in all future COR adjusted zones using WebCOR. They have developed a
feature in the WebCOR application that records the mileage for all routes in a delivery
zone prior to adjustment using COR and automatically tracks the mileage in the zone
after the COR adjustment. We have included management’s comments in their entirety
in Appendix G.

Evaluation of Management’s Comments

The U.S. Postal Service Office of Inspector General (OIG) considers management’s
comments responsive to recommendations 1, 2a, 2b, 2c, and 3 and management’s
corrective actions should resolve the issues identified in the report.

Although the Eastern and Great Lakes Areas disagreed with recommendation 2a, we
consider management’s comments responsive to recommendation 2a. In the Eastern
Area, they use their area route adjustment champions to assist the districts and ensured
the districts employees will be trained, as needed. In the Great Lakes Area, they have
trained 136 employees on COR database preparation and route adjustments processes
since 2005. We concluded these actions provide sufficient resources to ensure the
route adjustment take place using the COR system.
As for the partial disagreement by the Eastern and Great Lakes Areas on
recommendation 2c, we consider management’s comments responsive and
management’s corrective actions should resolve the reported issues. For clarification
regarding their comments, we agree that the COR system will only be used on those
routes in delivery units having DOIS and many of the smaller delivery units do not have
DOIS.

Finally, we do not consider the Eastern, Great Lakes, and Northeast Areas’ comments
to be responsive to the potential monetary impact. During the audit, we discussed the
scope and methodology used to calculate the monetary impact and made management
aware of the dollar amounts applicable at the district and area levels. The methodology
used was sound and reasonable when calculating the COR savings.

Reporting of COR Implementation Data

Area officials did not always report accurate and complete COR system implementation
data obtained from their respective district offices to the Postal Service. This occurred
because area officials did not provide the managerial oversight needed to verify the
integrity of the data received from districts. See Appendix B for additional information
about these issues.

Inaccurate and incomplete information compromises the integrity of COR system data
which could impact the program’s results.

We recommend the Acting Vice President, Delivery and Post Office Operations, ensure
area officials:

4. Mandate verification of the accuracy and completeness of the Carrier Optimal
   Routing system data received from each district to ensure data integrity.

Management’s Comments

The Acting Vice President, Delivery and Post Office Operations, agreed with the finding
and recommendation stating a policy will be distributed by December 31, 2009 which
mandates that COR system data tracking be accurate and complete. In addition,
management stated the information will be cross-referenced in the National Route
Adjustment System.

Evaluation of Management’s Comments

The OIG considers management’s comments responsive to the recommendation and
management’s corrective actions should resolve the issues identified in the report.
The OIG considers all the recommendations significant, and therefore requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective actions are completed. These recommendations should not be closed in the
Postal Service’s follow-up tracking system until the OIG provides written confirmation
that the recommendations can be closed.

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Rita Oliver, Director, Delivery,
or me at (703) 248-2100.

     E-Signed by Robert Batta
 VERIFY authenticity with ApproveIt




Robert J. Batta
Deputy Assistant Inspector General
 for Mission Operations

Attachments

cc: Patrick R. Donahoe
    Steven J. Forte
    James W. Kiser
    Philip F. Knoll
    Steven N. Benson
    Linda J. Welch
    William (Bill) F. Doran
    Jacqueline M. Krage
    J. Donnie Collins
    Joseph A. Martin Sr.
    Elizabeth A. Schaefer
    Bill Harris
                           APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

The COR system was implemented in October 2005 and contains a carrier routing and
travel optimization program used to configure compact, contiguous, safe, and efficient
city carrier routes. This routing software uses specifically designed algorithms to reduce
unnecessary travel and optimize park points and relays on city carrier delivery routes.
The COR system is compatible with the DOIS and receives delivery and route
adjustment files directly from the DOIS to complete route adjustments. The COR
system is based on the Maptitude Geographic Information System (GIS)6 which
supports a user by enabling them to visually see the street territory for a Zone
Improvement Plan (ZIP) Code that is being adjusted.

The Postal Service’s business goal is to use the COR system to establish safer, more
efficient routes; and to reduce workhours, vehicle mileage, and delivery costs. The
COR system uses actual mail volume data to create efficient travel paths while reducing
park points and relays. According to the Postal Service’s Corporate Planning System –
FY 2009 Plan Narrative, delivery units using the COR system reduced:

       Carrier route time on average by 17 additional minutes daily for every route
        adjusted using COR system compared to any other adjustment method which
        resulted in reduced workhours.

       Vehicle mileage on average by 12 percent in COR system adjusted zones.

       Number of routes and vehicles.

       Fuel costs by optimizing travel patterns.

According to Postal Service Headquarters officials, COR is a primary part of the
projected cost savings in their strategies to Congress.

OBJECTIVE, SCOPE, AND METHODOLOGY

Our objective was to review Postal Service’s use of the COR system for consolidating
routes for efficient lines of travel and reducing delivery costs. Our audit scope covered
route adjustments made using the COR system during the period October 1, 2005,
through April 30, 2009.




6
 A mapping software program that allows users to view, edit, and integrate maps. The software and technology are
designed to facilitate the geographical visualization and analysis of either included data or custom external data.
Specifically we:

        Judgmentally selected 32 districts within the Capital Metro, Eastern, Great Lakes,
         Northeast, Southeast, and Western Areas7 that have at least seven COR zones.8
         See Appendix F for list of selected districts.

        Reviewed 2,550 total delivery zones in 32 districts which included:

             o 764 COR zones9 with 15,634 COR adjusted routes.10
             o 1,786 zones/routes not adjusted using COR11 with 39,237 non-COR
               adjusted routes.12

        Reviewed applicable documentation, policies, and procedures such as:

             o Handbook M-39, Management of Delivery Services.
             o Handbook M-41, City Delivery Carriers Duties Responsibilities.
             o Memorandum of Agreement between the Postal Service and the National
               Association of Letter Carriers (NALC) regarding the Modified Interim
               Alternate Route Adjustment Process – 2009 dated April 7, 2009.
             o Memorandum of Understanding between the Postal Service and NALC
               regarding the Interim Alternate Route Adjustment Process dated October
               22, 2008.
             o Postal Service Policy Memorandum, Carrier Optimal Routing System
               (COR) and Route Adjustments dated January 25, 2005.

        Obtained and analyzed nationwide COR system data compiled by Postal Service
         Headquarters officials.

        Obtained and analyzed data for selected districts and delivery zones from the
         COR system, Web Enterprise Information System, Enterprise Data Warehouse
         (EDW), and DOIS for FYs 2005 through 2009, Quarter 2.

        Interviewed appropriate delivery operations managers at area and district levels
         to obtain information on the policies and procedures for performing carrier route
         adjustments and providing supporting performance documentation.



7
  The New York Metro, Pacific, and Southwest Areas do not contain districts that met audit criteria.
8
  We did not select districts with fewer than seven COR zones to limit the number of site location visits required for
our review.
9
  A zone is defined as a ZIP Code established by the Postal Service for more efficient mail delivery within a city and
state.
10
   A route is defined as the group of addresses to which the Postal Service assigns the same code to aid in mail
delivery.
11
   A non-COR zone is defined as a delivery zone with routes that have not been adjusted using the COR system.
12
   A non-COR route is defined as a route that has been created from a manual DOIS route adjustment.
    We conducted this audit from October 2008 through October 2009 in accordance with
    generally accepted government auditing standards and included such tests of internal
    controls as we considered necessary under the circumstances. Those standards
    require that we plan and perform the audit to obtain sufficient, appropriate evidence to
    provide a reasonable basis for our findings and conclusions based on our audit
    objective. We believe that the evidence obtained provides a reasonable basis for our
    findings and conclusions based on our audit objective. We discussed our observations
    and conclusions with district officials July 15 to 23, 2009, area management officials
    July 29 to August 4, 2009, and Postal Service management on August 10 and 17, 2009,
    and included their comments where appropriate. We relied on data obtained from
    Postal Service database systems but did not directly audit the systems. However, we
    performed a limited data integrity review to support our data reliance.

    PRIOR AUDIT COVERAGE

    The OIG has issued one report related to our objective.

                                        Final Report    Monetary
     Report Title       Report Number       Date         Impact                   Report Results
City Delivery Vehicle   DR-AR-08-004    March 4, 2008   $5.8 million   Vehicle mileage information in the
Mileage – Base Versus                                                  Automated Vehicle Mileage Utilization
Actual – National                                                      System was not consistently accurate
Capping Report                                                         and reliable, and this impacted
                                                                       supervisors’ effectiveness in making
                                                                       daily delivery and vehicle maintenance
                                                                       decisions. These conditions resulted in
                                                                       over 682,000 unsupported carrier miles.
                                                                       Management agreed with the
                                                                       recommendations.
                           APPENDIX B: DETAILED ANALYSIS

Use of the COR System

While the Postal Service completed 15,634 routes using the COR system, it did not
complete an additional 39,237 routes in the 32 district reviewed. We also found that in
the majority of cases the agency did not track reductions in vehicle mileage changes
due to COR system route adjustments. Only three of the 32 districts reviewed were
able to provide information concerning route mileage changes.

We identified three major factors that attributed to district officials’ inability to fully utilize
the COR system. Specifically:

   a. The COR system was not initially user friendly and the data preparation process
      is labor intensive and time consuming.

   b. Dedicated district personnel are sometimes not selected and trained as COR
      system subject matter experts.

   c. The Postal Service did not mandate tracking of mileage changes in the issued
      policy memorandums.

Route Adjustments Made Using COR system

Of the 15,634 COR adjusted routes, district officials have removed or consolidated 630
regular city routes and 250 auxiliary city routes. See Table 1 on the following page.
                 Table 1. Removed/Consolidated Regular and Auxiliary City Routes by District
                                                                                                   Total
                           Number    Number          Number of               Number of           Removed/
                           of COR    of COR     Removed/Consolidated   Removed/Consolidated     Consolidated
      District              Zones    Routes      Regular City Routes    Auxiliary City Routes     Routes
Alabama                       25       378                0                       0                  0
Appalachian                  21        336               1                       6                   7
Arizona                       8        206              22                       0                  22
Atlanta                      49        1047             70                      22                  92
Baltimore                    11        272               7                       1                   8
Boston                       55        1359             74                      24                  98
Central Florida              17        347              27                       0                  27
Central Illinois             14        289               9                       4                  13
Cincinnati                   21        426              41                      12                  53
Colorado/Wyoming             41        935              18                      21                  39
Columbus                     15        310               9                       1                  10
Connecticut                  14        342              13                       2                  15
Greater Indiana              38        615              54                       1                  55
Greater Michigan             12        207               1                       5                   6
Greensboro                    9         94               4                       3                   7
Kentuckiana                  23        406              13                      13                  26
Lakeland                     31        637              41                       4                  45
Maine                         9        165               5                       0                   5
Massachusetts                23        505              18                       5                  23
Mississippi                  19        193               6                       1                   7
Nevada/Sierra                22        531               5                       4                   9
New
                             13        205               0                       5                   5
Hampshire/Vermont
North Florida                15        168               4                       3                   7
Northern Illinois            14        412              17                      13                  30
Northern Ohio                35        790               0                      12                  12
Northern Virginia            28        698              52                      20                  72
Salt Lake City               16        248               4                       5                   9
South Florida                54        1551             45                      33                  78
Southeast Michigan           39        743              11                       8                  19
Suncoast                     14        222              29                       3                  32
Tennessee                    42        687              11                      13                  24
Western New York             17        310              19                       6                  25
                   Total       764       15,634         630                     250                 880
Source: Postal Service District Delivery Management
Further, as a result of COR route adjustments and reduction in routes, district officials in
24 of the 32 districts identified the removal of 517 city delivery vehicles. Management
either reassigned the vehicles to rural routes or other delivery units, or returned them to
the VMF. See Table 2 for the total number of vehicles removed for each of the 24
districts.

                               Table 2. Removed Vehicles by District
                                Number of                           Number of    Total of
                                 Vehicles                            Vehicles   Vehicles
                District        Removed              District       Removed     Removed
          Arizona                  19          Lakeland                 9          28
          Atlanta                  92          Maine                    4          96
          Boston                   34          Massachusetts           13          47
          Central Florida           9          Mississippi              7          16
          Central Illinois          13         North Florida            4          17
          Cincinnati                35         Northern Illinois       34          69
          Colorado/Wyoming          26         Northern Ohio           13          39
          Columbus                  10         Northern Virginia       23          33
          Connecticut               13         Southeast Michigan      19          32
          Greater Indiana           30         Suncoast                32          62
          Greensboro                7          Tennessee               23          30
          Kentuckiana               25         Western New York        23          48
                      Total         313                               204         517
         Source: Postal Service District Delivery Management
Criteria for Using the COR System Nationwide to Adjust Routes in All Zones

To communicate the need to use the COR system to optimize and adjust routes, the
Postal Service distributed several policy memorandums to area offices and signed
several memorandums of agreement with NALC as shown in Table 3.

                                Table 3. COR System Memorandums
                    Title                          Date                       Results
Memorandum of Agreement between the             April 2009    This agreement mandated
Postal Service and National Association of                    implementation of all route
Letter Carriers – Modified Interim Alternate                  adjustments completed by August 31,
Route Adjustment Process – 2009                               2009.
Memorandum of Understanding between            October 2008   Postal Service Headquarters officials
the Postal Service and National                               instructed all areas which have
Association of Letter Carriers – Interim                      performed data preparation for COR
Alternate Route Adjustment Process                            system should utilize it for their route
                                                              adjustments, as long as the timelines
                                                              of the memorandum can be met.
Briefing on Field Updates Focuses on            July 2008     The Deputy Postmaster General
Reducing Delivery Costs – Deputy                              mandated that COR database
Postmaster General                                            preparation be completed for all zones
                                                              (approximately 6,400) and finalized by
                                                              the end of FY 2009.
Route Adjustment Strategy Meeting – Vice        May 2008      Postal Service Headquarters officials
President Delivery Operations                                 mandated that COR system
                                                              adjustments be completed at 2 – 3
                                                              districts during the fall adjustment
                                                              season.
Carrier Optimal Route and Route                January 2005   Moratorium was lifted on route
Adjustments – Vice President Delivery and                     inspections and adjustments.
Retail

Despite Postal Service officials implementing and distribution policy changes, some
district officials have not consistently made route adjustments using the COR system for
all zones. As of April 30, 2009, for the 32 districts included in this OIG review, a total of
1,786 zones comprised of 39,237 routes had not been adjusted with the COR system.
See Table 4 on the following page.
       Table 4. Zones and Routes Not Adjusted Using COR
                                    Number of          Number of
           District                   Zones             Routes
 Alabama                                34                566
 Appalachian                            16                250
 Arizona                                 96              2378
 Atlanta                                50                890
 Baltimore                              58               1522
 Boston                                 19                437
 Central Florida                        106              2266
 Central Illinois                       79               1746
 Cincinnati                             105              2120
 Colorado/Wyoming                       83               1910
 Columbus                                33               795
 Connecticut                            85               2110
 Greater Indiana                        82               1454
 Greater Michigan                       46                953
 Greensboro                             61               1284
 Kentuckiana                            45                894
 Lakeland                               36                852
 Maine                                    7               114
 Massachusetts                          69               1534
 Mississippi                             14               195
 Nevada/Sierra                          34                860
 New Hampshire/Vermont                  17                308
 North Florida                          52                992
 Northern Illinois                      83               2156
 Northern Ohio                          97               2316
 Northern Virginia                      28                634
 Salt Lake City                         40                750
 South Florida                          60               1600
 Southeast Michigan                     49               1174
 Suncoast                               98               1948
 Tennessee                              46                892
 Western New York                       58               1337
                         Total         1,786            39,237
Source: Postal Service Headquarters and OIG Analysis
COR System Limitations

According to some district officials, they experienced challenges with implementing the
COR system. The COR software was not user friendly and has limitations when
preparing lines of travel for city parks, when there is more than one mailbox on different
sides of the same house, and when Cluster Box Units are involved. Additionally, the
COR system does not retain line of travel information once the user has exited the
program. For example, inputting data preparation adjustments such as new growth in a
delivery zone or a possible file corruption during the route adjustment process requires
redoing the line of travel field. The COR system software does not retain these
parameters since the route adjustments are performed on a standalone computer.
Standalone computers are not connected to the Postal Service network; therefore, if
these systems crash all entered data is lost.

To eliminate these problems, the Postal Service has developed a web-based version of
the COR system called the WebCOR system. WebCOR was pre-piloted during January
and February 2009. However, the WebCOR system has not been implemented
nationwide because it is not operating properly and currently will not support the number
of COR system users in the field. Therefore, until the Postal Service can eliminate the
COR system and its application problems, the districts will continue to use the
standalone desktop version.

In addition, district officials informed the OIG that the data preparation step is a very
labor intensive and time consuming process, requiring approximately 2 to 4 hours to
enter the data for each route. Data for each route in a zone must be downloaded from
DOIS into the COR system and reviewed to ensure the routes are contiguous. In order
for route adjustments to be effective (either when done manually or with the COR
system), a current PS Form 3999, Inspection of Letter Carrier Route, documenting the
associated route inspection must be completed and entered into DOIS.

We identified instances where district officials did not always use a current PS Form
3999 when performing the data preparation or route adjustment steps of the COR
system process because they did not perform the annual route inspections mandated
by Postal Service policy. As a result, COR system route adjustments made using
outdated route inspection information may establish inaccurate lines of travel and
possibly increase delivery costs. Five of the 32 districts reviewed had outdated13 PS
Forms 3999 on file for 30 zones and 777 adjusted routes under their jurisdiction. See
Table 5 on the following page.




13
     These forms were more than 1 year old.
                            Table 5. Districts with Outdated PS Forms 3999
                                               Number of        Number of City
                                        Zones With Outdated        Routes
                           District          PS Form 3999         Adjusted
                        Arizona                    3                 72
                        Baltimore                  1                 42
                        Boston                     6                174
                        Nevada/Sierra              18               473
                        Salt Lake City             2                 16
                                 Total             30               777
                      Source: Postal Service EDW

COR Subject Matter Experts

Each district office was required to designate four employees as COR system subject
matter experts. Management should have trained at least two employees in the data
preparation process and two in the route adjustment process to assist with
implementation of the COR system process. See Appendix D for a flowchart of the
COR database preparation process and Appendix E for a flowchart of the COR route
adjustment process.

Of the 32 districts reviewed, 23 had four COR system subject matter experts, two
trained to perform data preparation and two trained to perform route adjustments.
However, in the remaining nine districts, fewer than two employees were trained to
perform either the data preparation task or the route adjustments task. District officials
had not selected and trained COR system subject matter experts because they had not
made a commitment to assign staff to these positions. See Table 6.

                Table 6. Districts with Less Than Two COR Subject Matter Experts
                          In Data Preparation and/or Route Adjustments
                         District                  Data Preparation Route Adjustments
        Atlanta                                           1                 1
        Central Florida                                   3                 1
        Greater Indiana                                   1                 1
        Greater Michigan                                  1                 6
        Greensboro                                        3                 1
        Massachusetts                                     1                 1
        Nevada/Sierra                                     1                 1
        Northern Ohio                                     1                 1
        Western New York                                  1                 1
       Source: OIG Audit Analysis of Data Provided by Districts
Tracking Changes in Route Mileage

The Postal Service’s business goal is to use the COR system to establish safer, more
efficient routes; and to reduce workhours, route mileage, and delivery costs. Only three
of the 32 districts reviewed were able to provide information concerning route mileage
changes. According to some district officials, they did not track and monitor changes in
route mileage resulting from COR system adjustments. Management did not mandate
this task in the issued policy memorandums. See Table 7 for examples of mileage
changes to the COR system.

               Table 7. Route Mileage Changes from COR System Adjustments
                                          Pre–COR     Post COR
                                           System      System        Total
                         District          Mileage     Mileage      Change
            Nevada/Sierra                    166,780     169,204        2,424
            New Hampshire/Vermont               2,476       2,381          -95
            Northern Illinois                   7,724       6,659      -1,065
           Source: OIG Audit Analysis of Existing and Adjusted Route Summaries


      The Nevada/Sierra District provided mileage change information for seven of 22
       zones which showed a total mileage increase of 2,424 miles. However, only two
       of the zones had current PS Forms 3999 on file; therefore, the accuracy of the
       mileage changes was questionable.

      The New Hampshire/Vermont District provided mileage change information for
       11 of 12 COR system adjusted zones showing a total mileage decrease of 95
       miles. All of the zones had a current PS Form 3999 on file. According to district
       officials, the time on the routes becomes the primary factor in the COR system
       route adjustment process. The mileage savings is a by-product of "tightening"
       the routes. Though they strive to find efficient travel patterns, typically it is not
       put in terms of route miles saved, just time saved.

      Lastly, the Northern Illinois District provided mileage change information for all
       zones adjusted with COR system. All of the zones had a current PS Form 3999
       on file. The district showed a total mileage decrease of 1,065 miles.

As a result, the Postal Service may not realize nationwide cost reductions in delivery
from consolidation of carrier routes and changes in vehicle mileage. We estimated the
Postal Service incurred unrecoverable supported questioned costs in FY 2008 of
$101,820,325 by not using the COR system. By using the COR system, we estimate
the Postal Service can save $221,337,796 in funds put to better use over the next 2
years.
            Reporting COR System Implementation Data

            Area officials did not always report accurate and complete district COR system
            implementation data. The Postal Service started tracking COR system data preparation
            completion and route adjustments on a nationwide basis from February 2007 to
            February 2008. Headquarters performed sporadic COR system usage tracking from
            March through December 2008. Beginning in January 2009, area officials began
            monthly nationwide tracking of COR system usage. As of April 2009, area officials have
            reported to the Postal Service that their respective districts have completed route
            adjustments on a total of 5,17214 zones as shown in Table 8 below.

                             Table 8. Nationwide COR System Zone Route Adjustments Trend Analysis
                  Period      Period      Period      Period      Period       Period      Period      Period      Period      Period
                  Ending      Ending      Ending      Ending      Ending      Ending       Ending      Ending      Ending      Ending     Total
   Area          2/26/2007   2/25/2008   6/17/2008   8/20/2008   9/30/2008   12/10/2008   1/28/2009   2/27/2009   3/31/2009   4/30/2009   Zones
Capital
                     22         54          57          61          59          61           69          75          76          78        612
Metro

Eastern              34         46          70          71          76          95          103         109         110         113        827
Great
                     34         40          40          40          41          43           50         148         202         123        761
Lakes
New York             0           1           2          2           3            5           15          15          16          16        75

Northeast            33         64          85          85          90          91           98         130         132         133        941

Pacific              6           6           6          6           6            1           4           5           5           5         50

Southeast            21         26          30          47          54          101         166         192         259         293       1189
Southwest            0           0           0          0           0            9           15          15          0           6         45
Western              13         39          39          36          35          56          105         117         116         116        672
 National           163         276        329         348         364          462         625         806         916         883       5,172
Source: Postal Service Headquarters COR Program Manager

            Although area officials are reporting COR system implementation data, they did not
            always report accurate and complete data obtained from their respective district offices
            to management. Specifically, of the 32 districts reviewed, we identified four with major
            differences between what they reported as adjusted zones and those zones they
            actually adjusted using the COR system. See Table 9 on the following page for
            reported and actual zones adjusted by district.




            14
                 The 5,172 zones represent all nine areas to include the 764 zones for the 32 districts the OIG reviewed.
                       Table 9. Reported and Actual Zones Adjusted by District
                                                Reported Zones         Actual Zones
                           District                 Adjusted              Adjusted
                 Greater Indiana                        13                   38
                 Lakeland                               57                   31
                 Northern Illinois                      87                   14
                 Capital District15                     25                  N/A
                Source: OIG Audit Analysis of Existing and Adjusted Route Summaries

According to Great Lakes Area officials, the errors in the data for their three districts
was the result of errors that occurred while they were entering data in the area summary
spreadsheets for the Postal Service. In addition, Capital District officials reported 25
COR system adjusted zones to the Capital Metro Area office. However, district officials
were unable to provide credible supporting documentation to substantiate whether
adjustments were performed.

Area officials did not provide adequate managerial oversight needed to verify the
integrity of the data received from district officials prior to submission to the Postal
Service. Inaccurate and incomplete information compromises the integrity of the COR
system data which could impact the program’s results.




15
  Capital District officials did not provide supporting documentation to substantiate whether they made adjustments
using the COR system.
                  APPENDIX C: OIG CALCULATION OF MONETARY IMPACT

We estimated the monetary impact for each of the 32 districts reviewed for 3 years,
from FYs 2008 through 2010. The OIG identified $101,820,325 in unrecoverable
supported questioned costs in FY 2008 for city routes in the 32 districts reviewed that
were not making adjustments using the COR system. We estimated the Postal Service
could save $221,337,796 in funds put to better use over the next 2 years by
implementing the COR system for city routes not adjusted.

This districts reviewed in this audit had fully implemented the COR system to perform
route adjustments. We estimated the total monetary impact by area and district for 3
years from FY’s 2008 through 2010. See Tables 10 and 11, respectively.

                                   Table 10. Total Monetary Impact by Area16
                                                                                  Total
                                   Questioned    Funds Put to   Funds Put to    Monetary
                                     Costs        Better Use     Better Use    Impact Over
                     Area           FY 2008        FY 2009        FY 2010        3 Years
                Capital Metro       $9,096,808     $9,692,476    $10,082,234    $28,871,519
                Eastern             15,968,113     17,013,721     17,697,884     50,679,717
                Great Lakes         26,277,935     27,998,641     29,124,534     83,401,110
                Northeast           23,081,462     24,592,859     25,581,798     73,256,119
                Southeast           18,393,979     19,598,435     20,386,536     58,378,951
                Western              9,002,028      9,591,490      9,977,187     28,570,705
                          Total   $101,820,325   $108,487,622   $112,850,174   $323,158,121




16
     Totals may not add up due to rounding.
                                 Table 11. Total Monetary Impact by District17
                                            Annual           Annual         Annual
                                            Savings          Savings        Savings        District
                                            FY 2008          FY 2009        FY 2010      Totals for 3
                     District             (52 Weeks)       (52 Weeks)     (52 Weeks)        Years
          Alabama                              $360,433       $384,035       $399,478      $1,143,945
          Appalachian                           191,042        203,552        211,737        606,331
          Arizona                              6,607,979      7,040,676      7,323,799     20,972,453
          Atlanta                              2,442,215      2,602,134      2,706,772      7,751,121
          Baltimore                            4,581,773      4,881,792      5,078,101     14,541,665
          Boston                               1,917,636      2,043,205      2,125,367      6,086,208
          Central Florida                      6,113,098      6,513,390      6,775,309     19,401,798
          Central Illinois                     8,551,261      9,111,206      9,477,590     27,140,057
          Cincinnati                          10,014,784     10,670,562     11,099,651     31,784,997
          Colorado/Wyoming                     1,149,959      1,225,259      1,274,530      3,649,748
          Columbus                             1,187,415      1,265,168      1,316,043      3,768,626
          Connecticut                          6,864,902      7,314,422      7,608,553     21,787,877
          Greater Indiana                      5,639,684      6,008,976      6,250,612     17,899,272
          Greater Michigan                      783,424        834,723        868,290       2,486,437
          Greensboro                           2,988,179      3,183,848      3,311,878      9,483,906
          Kentuckiana                          2,215,118      2,360,166      2,455,074      7,030,358
          Lakeland                             2,061,728      2,196,732      2,285,068      6,543,529
          Maine                                 368,260        392,374        408,152       1,168,787
          Massachusetts                        5,488,193      5,847,566      6,082,710     17,418,469
          Mississippi                           453,812        483,528        502,972       1,440,313
          Nevada/Sierra                         697,015        742,656        772,520       2,212,191
          New Hampshire/Vermont                 795,245        847,319        881,392       2,523,956
          North Florida                        2,078,911      2,215,040      2,304,112      6,598,062
          Northern Illinois                    7,189,303      7,660,066      7,968,096     22,817,465
          Northern Ohio                        2,359,754      2,514,273      2,615,378      7,489,406
          Northern Virginia                    1,526,856      1,626,836      1,692,255      4,845,948
          Salt Lake City                        547,076        582,899        606,338       1,736,313
          South Florida                        1,593,177      1,697,500      1,765,760      5,056,437
          Southeast Michigan                   2,052,535      2,186,937      2,274,879      6,514,351
          Suncoast                             4,691,350      4,998,544      5,199,548     14,889,442
          Tennessee                             660,983        704,265        732,585       2,097,833
          Western New York                     7,647,226      8,147,974      8,475,624     24,270,823
                                Total    $101,820,325      $108,487,622   $112,850,174   $323,158,121


17
     Totals may not add up due to rounding.
Notes:

        We calculated unrecoverable supported questioned costs using the estimated
         total average hours per day on routes in the 32 reviewed districts that had not
         been adjusted using the COR system multiplied by the city letter carrier level 2
         annual overtime rate for FY 2008.

        We calculated funds put to better use for FYs 2009 and 2010 using the city letter
         carrier level 2 annual overtime rate for FYs 2009 and 2010.

        The escalation factor from FYs 2008 to 2009 is $1.61.

        The escalation factor from FYs 2009 to 2010 is $1.07.

        The escalation factor is based on the Postal Service’s National Average Labor
         Rates Table, FY 2008 Actual and FYs 2009 and 2010 Projections.
APPENDIX D: COR DATABASE PREPARATION FLOWCHART
APPENDIX E: COR ROUTE ADJUSTMENT FLOWCHART
                      APPENDIX F: SELECTED AREAS AND DISTRICTS

                             Area                               District
                           Capital Metro                    Baltimore
                                                            Capital18
                                                            Greensboro
                                                            Northern Virginia

                           Eastern                          Appalachian
                                                            Cincinnati
                                                            Columbus
                                                            Kentuckiana
                                                            Northern Ohio

                           Great Lakes                      Central Illinois
                                                            Greater Indiana
                                                            Greater Michigan
                                                            Lakeland
                                                            Northern Illinois
                                                            Southeast Michigan

                           Northeast                        Boston
                                                            Connecticut
                                                            Maine
                                                            Massachusetts
                                                            New Hampshire/Vermont

                           Southeast                        Alabama
                                                            Atlanta
                                                            Central Florida
                                                            Mississippi
                                                            North Florida
                                                            South Florida
                                                            Suncoast
                                                            Tennessee

                           Western                          Arizona
                                                            Colorado/Wyoming
                                                            Nevada/Sierra
                                                            Salt Lake City




18
   The Capital District was unable to provide credible supporting documentation to determine effective implementation
of the COR system to perform route adjustments.
APPENDIX G: MANAGEMENT’S COMMENTS
